Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERAL 



   CALIFORNIA IMPROPERLY

 CLAIMED ENHANCED FEDERAL

REIMBURSEMENT FOR MEDICAID 

  FAMILY PLANNING SERVICES 

        PROVIDED IN 

     SAN DIEGO COUNTY


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov. 
                                          




                                                   Gloria L. Jarmon

                                                Deputy Inspector General 


                                                      December 2012

                                                      A-09-11-02040 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 California claimed approximately $5.7 million in unallowable enhanced Federal
 reimbursement for Medicaid family planning services provided in San Diego County.

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
law and regulations authorize Federal Medicaid reimbursement to States for family planning
services at an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent
rate). Previous Office of Inspector General reviews found that States improperly claimed
reimbursement at the 90-percent rate for services that were eligible only for the regular FMAP or
were ineligible for Federal reimbursement.

The objective of this review was to determine whether the California Department of Health Care
Services (State agency) complied with certain Federal and State requirements when claiming
Federal reimbursement at the 90-percent rate for family planning services provided under the
Family Planning, Access, Care, and Treatment (FPACT) program in San Diego County.

BACKGROUND

In California, the State agency administers the Medicaid program. The State agency’s FPACT
program, a demonstration project (waiver) under section 1115 of the Social Security Act, extends
Medicaid eligibility for family planning services to individuals of childbearing age who reside in
California and have incomes up to 200 percent of the Federal poverty level. Individuals eligible
for the FPACT program are generally not otherwise eligible for Medicaid.

The section 1115 waiver for the FPACT program states that Federal reimbursement is available
at the 90-percent rate for services whose primary purpose is family planning and that are
provided in a family planning setting. Federal reimbursement is available at the regular FMAP
(61.59 percent during our audit period) for services provided ancillary to a family planning
service, such as followup visits, and that carry a diagnosis code indicating that they are related to
a family planning service. The Centers for Medicare & Medicaid Services (CMS) approved a
list of procedure codes eligible for reimbursement under the FPACT program and applicable
Federal reimbursement rates.

HOW WE CONDUCTED THIS REVIEW

From October 1, 2008, through September 30, 2010, the State agency claimed approximately
$96.8 million ($71.5 million Federal share) for family planning services, drugs, and supplies
provided to FPACT clients in San Diego County, representing 2.5 million claim lines. (A claim
line represented an individual service billed as part of a claim for an FPACT client.) Of these
claim lines, we judgmentally selected for review 2,688 claim lines, totaling $88,748, that had no
procedure codes or procedure codes that were not approved by CMS for reimbursement at the
90-percent rate. We did not review approximately 1 million claim lines, totaling $41.3 million,
for drugs and supplies (to be reviewed in a future audit), pregnancy tests (a low risk of being


Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                   i
unallowable), and reimbursements determined to be immaterial. We reviewed a stratified
random sample from the remaining 1.5 million claim lines, totaling $55.5 million, for family
planning services.

WHAT WE FOUND

The State agency did not always comply with certain Federal and State requirements when
claiming Federal reimbursement at the 90-percent rate for family planning services provided
under the FPACT program in San Diego County. As a result, the State agency claimed
$5,671,216 in unallowable Federal reimbursement.

    •   Of the 110 sampled claim lines, 81 complied and 29 did not comply with requirements.
        Of the 29 claim lines, 23 were ineligible for reimbursement because the primary purpose
        of the visit was not family planning, 4 were eligible for reimbursement only at the regular
        FMAP because they were for followup visits, and 2 were ineligible for reimbursement
        because of insufficient documentation. On the basis of our sample results, we estimated
        that the State agency claimed $5,605,504 in unallowable Federal reimbursement.

    •   Of the $88,748 we reviewed separately, the State agency claimed $65,712 in unallowable
        Federal reimbursement for claim lines that contained either no procedure code or a
        procedure code that was not approved by CMS for reimbursement at the 90-percent rate.

The overpayment occurred because the State agency did not have billing procedures to ensure
that it claimed reimbursement at the 90-percent rate only for services whose primary purpose
was family planning. Also, the State agency’s Medicaid Management Information System
(MMIS) lacked edits to prevent followup services from being claimed at the 90-percent rate and
to ensure that claims contained a CMS-approved procedure code.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $5,671,216 to the Federal Government,

    •   establish billing procedures to ensure that only services whose primary purpose is family
        planning are claimed for reimbursement at the 90-percent rate, and

    •   establish MMIS edits to ensure that family planning claims meet Federal and State
        requirements for reimbursement at the 90-percent rate and at the regular FMAP for
        followup visits.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations and
provided information on actions that it had taken or planned to take to address our
recommendations.


Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                ii
                                                     TABLE OF CONTENTS

                                                                                                                                         Page

INTRODUCTION.................................................................................................................... 1

           Why We Did This Review ........................................................................................... 1

           Objective ....................................................................................................................... 1

           Background .................................................................................................................. 1
                 Medicaid Program .............................................................................................. 1
                 Medicaid Coverage of Family Planning Services .............................................. 1
                 California’s Medicaid Family Planning Program .............................................. 2
                 State Requirements for the Family Planning Program ...................................... 2

           How We Conducted This Review ............................................................................... 3

FINDINGS ................................................................................................................................ 3

           Federal and State Requirements ................................................................................ 4

           Services Were Improperly Claimed Because Their Primary Purpose Was Not
           Family Planning ........................................................................................................... 4

           Procedure Codes Were Ineligible for Reimbursement
            at the 90-Percent Rate .............................................................................................. 5

RECOMMENDATIONS......................................................................................................... 5

STATE AGENCY COMMENTS ........................................................................................... 5

APPENDIXES

           A: Audit Scope and Methodology.............................................................................. 6

           B: Statistical Sampling Methodology ........................................................................ 8

           C: Sample Results and Estimates .............................................................................. 10

           D: Related Office of Inspector General Reports ...................................................... 11

           E: State Agency Comments ........................................................................................ 12




Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                                                                iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
law and regulations authorize Federal Medicaid reimbursement to States for family planning
services at an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent
rate). Previous Office of Inspector General (OIG) reviews found that States improperly claimed
reimbursement at the 90-percent rate for services that were eligible only for the regular FMAP or
were ineligible for Federal reimbursement.

OBJECTIVE

Our objective was to determine whether the California Department of Health Care Services
(State agency) complied with certain Federal and State requirements when claiming Federal
reimbursement at the 90-percent rate for family planning services provided under the Family
Planning, Access, Care, and Treatment (FPACT) program in San Diego County.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.
Section 1115 of the Social Security Act (the Act) authorizes demonstration projects (waiver) to
assist in promoting the objectives of the Medicaid program.

Medicaid Coverage of Family Planning Services

According to section 1905(a)(4)(C) of the Act, States are required to furnish family planning
services and supplies to individuals of childbearing age who are eligible under the State plan and
desire such services and supplies. Section 1903(a)(5) of the Act and Federal regulations
(42 CFR § 433.10(c)(1)) authorize Federal reimbursement for family planning services at the
90-percent rate.

Section 4270 of the CMS State Medicaid Manual (the Manual) states that family planning
services include those that prevent or delay pregnancy or otherwise control family size and may
also include infertility treatments. The Manual indicates that States are free to determine which
services and supplies will be covered as long as those services are sufficient in amount, duration,
and scope to reasonably achieve their purpose. However, only services and supplies clearly
furnished for family planning purposes may be claimed for Federal reimbursement at the
90-percent rate.



Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                 1
California’s Medicaid Family Planning Program

In California, the State agency administers the Medicaid program. The State agency’s FPACT
program, a section 1115 waiver, extends Medicaid eligibility for family planning services to
individuals of childbearing age who reside in California and have incomes up to 200 percent of
the Federal poverty level. Individuals eligible for the FPACT program are generally not
otherwise eligible for Medicaid. California’s Department of Public Health, Office of Family
Planning, is responsible for administering the FPACT program.

The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process Medicaid claims for payment. The
expenditures related to the claims are reported on the Form CMS-64, Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program, for Federal reimbursement.
During our audit period, the regular FMAP for California was 61.59 percent.

State Requirements for the Family Planning Program

CMS approved the section 1115 waiver for the FPACT program effective December 1, 1999.
The waiver period ended November 30, 2004, and operated on monthly extensions until family
planning services were incorporated into the State plan through State Plan Amendment 10-014,
effective July 1, 2010.

Section 6 of the Special Terms and Conditions of the section 1115 waiver for the FPACT
program (Special Terms and Conditions) states that Federal reimbursement is available at the
90-percent rate for services whose primary purpose is family planning and that are provided in a
family planning setting. Federal reimbursement is available at the regular FMAP for services
that are provided ancillary to a family planning service, such as followup visits, and that carry a
diagnosis code indicating that they are related to a family planning service. According to the
State agency’s Family PACT Policies, Procedures, and Billing Instructions Manual, the FPACT
program requires family planning providers to bill for services using special diagnosis codes,
called S-codes. The S-code is based on the family planning method selected by the FPACT
client, such as oral contraceptive, contraceptive injection, or barrier method.

In accordance with the Special Terms and Conditions, CMS approved a list of procedure codes
eligible for reimbursement under the FPACT program and their applicable Federal
reimbursement rates. 1 To account for clients who receive family planning services but are not
eligible for public benefits under Federal law, 2 such as nonqualified aliens, the State agency
deducts a CMS-approved percentage from total FPACT expenditures for the applicable period
before claiming reimbursement at the 90-percent rate (in accordance with section 24 of the
Special Terms and Conditions). This percentage ranged from 13.95 to 24 percent during our
audit period.


1
    CMS approved the original list on February 28, 2000, and an updated version on November 21, 2006.
2
 The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 defines citizenship requirements
for Federal public benefits.


Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                               2
HOW WE CONDUCTED THIS REVIEW

From October 1, 2008, through September 30, 2010, the State agency claimed approximately
$96.8 million ($71.5 million Federal share) for family planning services, drugs, and supplies
provided to FPACT clients in San Diego County, representing 2.5 million claim lines. (A claim
line represented an individual service billed as part of a claim for an FPACT client.) Of these
claim lines, we judgmentally selected for review 2,688 claim lines, totaling $88,748, that had no
procedure codes or procedure codes that were not approved by CMS for reimbursement at the
90-percent rate. We did not review approximately 1 million claim lines, totaling $41.3 million,
for drugs and supplies (to be reviewed in a future audit), pregnancy tests (a low risk of being
unallowable), and reimbursements determined to be immaterial. We reviewed a stratified
random sample from the remaining 1.5 million claim lines, totaling $55.5 million, for family
planning services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

Appendix A contains the details of our audit scope and methodology, Appendix B contains the
details of our statistical sampling methodology, and Appendix C contains our sample results and
estimates. Appendix D contains a list of related OIG reports on States’ claims for family
planning services.

                                               FINDINGS

The State agency did not always comply with certain Federal and State requirements when
claiming Federal reimbursement at the 90-percent rate for family planning services provided
under the FPACT program in San Diego County. As a result, the State agency claimed
$5,671,216 in unallowable Federal reimbursement.

    •   Of the 110 sampled claim lines, 81 complied and 29 did not comply with requirements.
        Of the 29 claim lines, 23 were ineligible for reimbursement because the primary purpose
        of the visit was not family planning, 4 were eligible for reimbursement only at the regular
        FMAP because they were for followup visits, and 2 were ineligible for reimbursement
        because of insufficient documentation. Based on our sample results, we estimated that
        the State agency claimed $5,605,504 in unallowable Federal reimbursement.

    •   Of the $88,748 we reviewed separately, the State agency claimed $65,712 in unallowable
        Federal reimbursement for claim lines that contained either no procedure code or a
        procedure code that was not approved by CMS for reimbursement at the 90-percent rate.

The overpayment occurred because the State agency did not have billing procedures to ensure
that it claimed reimbursement at the 90-percent rate only for services whose primary purpose
was family planning. Also, the State agency’s MMIS lacked edits to prevent followup services


Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                 3
from being claimed at the 90-percent rate and to ensure that claims contained a CMS-approved
procedure code.

FEDERAL AND STATE REQUIREMENTS

According to section 1902(a)(27) of the Act, providers must keep records as necessary to
disclose the extent of the service provided to individuals receiving assistance. Providers must
provide these records to the State agency or the Secretary of Health and Human Services upon
request.

The Manual, section 4270.B, states that only services clearly furnished for family planning
purposes may be claimed for Federal reimbursement at the 90-percent rate.

According to section 6.b of the Special Terms and Conditions, Federal reimbursement is
available at the regular FMAP for services that are provided ancillary to a family planning
service, such as followup visits, and that carry a diagnosis code indicating that they are related to
a family planning service. In accordance with the section 6.e of the Special Terms and
Conditions, CMS approved a list of procedure codes under the FPACT program and their
applicable Federal reimbursement rates.

SERVICES WERE IMPROPERLY CLAIMED BECAUSE THEIR PRIMARY PURPOSE
WAS NOT FAMILY PLANNING

On the basis of our review of client medical records for 110 sampled claim lines, we found that
the State agency did not comply with Federal and State requirements for family planning
services for 29 claim lines:

    •   For 23 claim lines, the primary purpose of the visit was not family planning, consisting of
        13 visits for testing for sexually transmitted infections, 5 visits for treatment of a medical
        condition, and 5 visits for other non-family-planning purposes. These claim lines were
        not eligible for Federal reimbursement because no family planning service was provided.
        The State agency did not have billing procedures to ensure that it claimed reimbursement
        at the 90-percent rate only for services whose primary purpose was family planning.
        Specifically, the State agency required providers to use S-codes, which allowed services
        whose primary purpose was not family planning to be incorrectly claimed as family
        planning. The S-code is based on the family planning method selected by the FPACT
        client, not the purpose of the visit.

    •   For four claim lines, the primary purpose of the visit was followup to a family planning
        visit. Because these services were provided ancillary to a family planning service, these
        claim lines were eligible for Federal reimbursement only at the regular FMAP. We
        disallowed the difference in reimbursement between the 90-percent rate and the regular
        FMAP. The State agency’s MMIS lacked edits to prevent these services from being
        claimed at the 90-percent rate.




Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                   4
    •   For two claim lines, there was insufficient documentation, including one claim line for
        which the provider was unable to locate the medical record. These claim lines were not
        eligible for Federal reimbursement.

During our audit, State medical professionals performed a medical review of the 29 claim lines
that we determined did not comply with Federal and State requirements. The medical
professionals did not provide evidence to support that the primary purpose of each visit was
family planning.

On the basis of our sample results, we estimated that the State agency claimed $5,605,504 in
unallowable Federal reimbursement.

PROCEDURE CODES WERE INELIGIBLE FOR REIMBURSEMENT
AT THE 90-PERCENT RATE

Of the 2,688 claim lines totaling $88,748 that we reviewed separately, 35 complied with Federal
and State requirements. However, 2,653 claim lines, totaling $65,712 in Federal reimbursement,
did not comply with requirements. Of these claim lines, 2,610 contained a procedure code not
eligible for Federal reimbursement, and 4 did not contain a procedure code. These claim lines
were not eligible for Federal reimbursement. The remaining 39 claim lines contained a
procedure code eligible for Federal reimbursement only at the regular FMAP. For these claim
lines, we disallowed the difference in reimbursement between the 90-percent rate and the regular
FMAP.

The State agency claimed unallowable Federal reimbursement because the MMIS lacked edits to
ensure that claims contained procedure codes and that the procedure codes were approved by
CMS for reimbursement at the 90-percent rate.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund $5,671,216 to the Federal Government,

    •   establish billing procedures to ensure that only services whose primary purpose is family
        planning are claimed for reimbursement at the 90-percent rate, and

    •   establish MMIS edits to ensure that family planning claims meet Federal and State
        requirements for reimbursement at the 90-percent rate and at the regular FMAP for
        followup visits.

                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendations and
provided information on actions that it had taken or planned to take to address our
recommendations. The State agency’s comments are included in their entirety as Appendix E.


Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                 5
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

From October 1, 2008, through September 30, 2010, the State agency claimed $96,824,781
($71,531,492 Federal share) for family planning services, drugs, and supplies provided to
FPACT clients in San Diego County, representing 2,485,218 claim lines. Of these claim lines,
we judgmentally selected for review 2,688 claim lines, totaling $88,748 ($66,232 Federal share),
that had no procedure codes or procedure codes that were not approved by CMS for
reimbursement at the 90-percent rate. We did not review approximately 1 million claim lines,
totaling $41.3 million, for drugs and supplies (to be reviewed in a future audit), pregnancy tests
(a low risk of being unallowable), and reimbursements determined to be immaterial. We
reviewed a stratified random sample from the remaining 1.5 million claim lines, totaling
$55.5 million ($40.9 million Federal share), for family planning services.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective. We limited
our review to determining whether the services provided to FPACT clients were eligible for
Federal reimbursement at the 90-percent rate. We did not determine whether the clients met the
eligibility requirements of the FPACT program.

We conducted our audit from April 2011 to January 2012 and performed our fieldwork at the
State agency’s office in Sacramento, California, and at provider locations in San Diego County.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal and State laws, regulations, and guidance and the State plan;

    •   reviewed the Special Terms and Conditions of the section 1115 waiver for the FPACT
        program;

    •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
        to State agency officials concerning Medicaid family planning claims;

    •   held discussions with State agency officials to gain an understanding of State policies and
        controls for claiming Federal reimbursement for family planning services;

    •   obtained family planning claim data from the State agency’s MMIS for the audit period,
        representing 2,485,218 claim lines totaling $96,824,781 ($71,531,492 Federal share);

    •   judgmentally selected for review 2,688 claim lines, totaling $88,748, that had no
        procedure codes or procedure codes that were not approved by CMS for reimbursement
        at the 90-percent rate;



Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                 6
                                                                                    APPENDIX A


    •   did not review 999,873 claim lines totaling $41,259,030, consisting of 633,663 claim
        lines for drugs and supplies (to be reviewed in a future audit), 188,216 claim lines for
        pregnancy tests (a low risk of being unallowable), and 177,994 claim lines for
        reimbursements that we determined to be immaterial; and

    •   developed a stratified random sample from the remaining 1,482,657 claim lines for
        family planning services, totaling $55,477,003, by doing the following:

            o created three strata, representing claim lines with Medicaid-reimbursed amounts
              from $5.00 to $19.99, $20.00 to $39.99, and $40.00 or more;

            o selected from the sampling frame a stratified sample of 110 claim lines to
              determine whether family planning services complied with certain Federal and
              State requirements by (1) contacting providers to obtain medical record
              information for each sampled item, (2) reviewing the written physician notes to
              confirm the purpose of the client’s visit, and (3) discussing with State medical
              professionals those sample items that we determined were unallowable for
              enhanced Federal reimbursement; and

            o estimated the unallowable Federal reimbursement paid in the sampling frame.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

To determine the State agency’s Federal share, we reduced the total amount claimed by the
CMS-approved deduction percentages (for clients who receive family planning services but are
not eligible for public benefits under Federal law) and then applied the 90-percent rate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                  7
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population of claims consisted of 2,485,218 claim lines totaling $96,824,781 for Medicaid
family planning services, drugs, and supplies provided under the FPACT program in San Diego
County from October 1, 2008, through September 30, 2010, for which the State agency claimed
Federal reimbursement at the 90-percent rate.

SAMPLING FRAME

From the population of claims, we removed claim lines with no procedure codes or procedure
codes that were not approved by CMS for reimbursement at the 90-percent rate. We reviewed
these claim lines separately.

We removed claim lines related to drugs and supplies, which we plan to review in a future audit.
We also removed claim lines for pregnancy tests, Rural Health Clinics (RHC), Federally
Qualified Health Centers (FQHC), and Indian Health Clinics (IHC) to yield a sampling frame
with a greater possibility of potentially unallowable claim lines. We established a materiality
level of $5.00 or more per claim line and removed claim lines that had a reimbursement of less
than this amount. Finally, we removed claim lines that appeared to be duplicates. The table
summarizes the number of claim lines excluded from the sampling frame and their total amounts.

                         Claim Lines Excluded From the Sampling Frame

                                                             No. of Claim
             Excluded Claim Lines                               Lines          Claimed Amount
No procedure code or procedure code not approved                   2,688            $88,748
by CMS for reimbursement at the 90-percent rate
(reviewed separately)

Other claim lines (not reviewed)

  Drugs and supplies                                             633,663             39,688,564
  Pregnancy tests                                                188,216                814,250
  RHC, FQHC, and IHC claim lines                                      45                    195
  Reimbursement less than $5.00                                  177,925                754,695
  Potential duplicate claim lines                                     24                  1,326
  Subtotal                                                       999,873            $41,259,030

    Total                                                      1,002,561            $41,347,778

After removing these claim lines, the sampling frame consisted of 1,482,657 claim lines totaling
$55,477,003 for Medicaid family planning services.




Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                 8
                                                                                    APPENDIX B

SAMPLE UNIT

The sample unit was an individual Medicaid claim line for a family planning service provided to
an FPACT client.

SAMPLE DESIGN

We used a stratified random sample to test the claim lines for allowability. To accomplish this,
we separated the sampling frame into three strata:

    •   Stratum 1: claim lines with a Medicaid-reimbursed amount from $5.00 to $19.99,
        consisting of 274,142 claim lines.

    •   Stratum 2: claim lines with a Medicaid-reimbursed amount from $20.00 to $39.99,
        consisting of 844,105 claim lines.

    •   Stratum 3: claim lines with a Medicaid-reimbursed amount of $40.00 or more, consisting
        of 364,410 claim lines.

SAMPLE SIZE

We selected a total sample of 110 claim lines for family planning services as follows:

    •   30 claim lines from stratum 1,

    •   40 claim lines from stratum 2, and

    •   40 claim lines from stratum 3.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the OIG, Office of Audit Services (OAS), statistical
software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the sample units in each stratum, starting with the value of 1. After
generating 30 random numbers for stratum 1, 40 random numbers for stratum 2, and 40 random
numbers for stratum 3, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable Federal reimbursement
paid.




Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                  9
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                   Sample Results: Total Amounts

             Number of
               Claim                                                        Number of    Value of
              Lines in        Value of          Sample        Value of      Unallowable Unallowable
Stratum       Stratum         Stratum            Size         Sample          Items       Items
   1           274,142        $3,408,283           30            $378            10        $117
   2           844,105        29,559,225           40           1,342             7          228
   3           364,410        22,509,495           40           2,414            12          768
 Total       1,482,657       $55,477,003          110          $4,134            29       $1,113

                              Sample Results: Federal Share Amounts

                                                                                         Value of
             Number of        Value of                        Value of                  Unallowable
               Claim          Stratum                          Sample       Number of     Items
              Lines in        (Federal          Sample        (Federal      Unallowable  (Federal
Stratum       Stratum          Share)            Size          Share)         Items       Share)
   1           274,142        $2,518,044           30             $282           10          $89
   2           844,105        21,816,270           40              982            7          134
   3           364,410        16,610,522           40            1,769           12          531
 Total       1,482,657       $40,944,836          110           $3,033           29        $754


                             Estimated Value of Unallowable Claims
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                           Total Amount              Federal Share
                    Point estimate          $12,873,817                $8,478,471
                    Lower limit               8,717,378                 5,605,504
                    Upper limit              17,030,256                11,351,438




Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                10
       APPENDIX D: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                                                                              Report        Date
                        Report Title                                         Number        Issued
North Carolina Incorrectly Claimed Enhanced Federal                       A-04-10-01091   06/15/12
Reimbursement for Some Medicaid Waiver Services That Were
Not Family Planning

North Carolina Incorrectly Claimed Enhanced Federal                       A-04-10-01089   06/13/12
Reimbursement for Some Medicaid Services That Were Not
Family Planning

Oregon Improperly Claimed Federal Reimbursement for         A-09-11-02010                 01/26/12
Medicaid Family Planning Services Provided Under the Family
Planning Expansion Project

Review of Costs for Inpatient Services in the Colorado                    A-07-11-01097   10/05/11
Medicaid Family Planning Program

Review of Medicaid Family Planning Services Claimed Under                 A-09-10-02043   06/29/11
the Oregon Health Plan During the Period October 1, 2006,
Through September 30, 2009

Review of Louisiana Medicaid Inpatient Hospital Family                    A-06-10-00076   05/20/11
Planning Services

Family Planning Services Claimed by Illinois From                         A-05-10-00053   03/18/11
October 1, 2007, Through September 30, 2009

Family Planning Services Claimed by Ohio from                             A-05-10-00035   03/11/11
October 1, 2007, through September 30, 2009

Review of Family Planning Services Claimed by Washington                  A-09-09-00049   02/28/11
State During the Period October 1, 2005, Through
September 30, 2008

Review of Family Planning Claims Submitted by Selected                    A-02-09-01015   09/23/09
Providers Under the New York State Medicaid Program

Family Planning Services Claimed by Michigan During                       A-05-09-00050   09/22/09
October 1, 2005, Through September 30, 2007

Family Planning Services Claimed Twice in Michigan for                    A-05-08-00064   06/12/09
October 1, 2005, Through September 30, 2007



Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)            11
                             APPENDIX E: STATE AGENCY COMMENTS 



                                  State of California-Health and Human Services Agency
        i.'HCS                    Department of Health Care Services
       'i~
         TOBY DOUGLAS
           DIRECTOR
                                                                                                              EDMUND G. BROWN JR.
                                                                                                                  GOVERNOR




             Ms. Lori A. Ahlstrand
             Regioriallnspector General for Audit Services
             Office of Audit Services, Region IX
             90 - 7'h Street, Suite 3-650
             San Francisco , CA 94103

             Dear Ms. Ahlstrand :

             The California Department of Health Care Services has prepared its response to the
             U.S. Department of Health and Human Services, Office of Inspector General (O IG),
             draft report entitled "Ca lifornia Improperly Claimed Enhanced Federal Reimbursement
             for Medicaid Family Planning Services Provided in San Diego County," report number
             A-09-11-02040. DHCS appreciates the work performed by OIG and the opportunity to
             respond to the draft report.

             Please contact Ms. Raj Khela , Audit Coordinator, at (916) 650-0298 if you have any
             questions.




             Enclosure

             cc:        See next page




                          1501 Capitol Avenue. Suite 71.6001. MS 0000 ' P.O. 997413 ' Sacramento. CA 95899-7413
                                                    (916) 440-7400' (916) 440-7404 FAX
                                                      Internet address: www.dhcs.ca.gov




Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                                                   12
                                                                                     APPENDIXE 





             Ms. Lori Ahlstrand 

             Page 2 





             cc: 	   Ms. Karen Johnson 

                     Chief Deputy Director 

                     1501 Capitol Avenue , MS 0000 

                     Sacramento, CA 95899-7413 


                     Ms. Christina Moreno 

                     Acting Chief, Office of Family Planning 

                     1501 Capitol Avenue , MS 4000 

                     Sacramento, CA 95899-7413 


                     Ms. Vicky Sady 

                     Deputy Director 

                     Fiscal Intermediary Medicaid Management Information Systems 

                     830 Stillwater, MS 4727 

                     West Sacramento, CA 95605 





Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)            13
                                                                                                    APPENDIXE 





                             .Department of Health Care :Services' Response to the
                               Office of Inspector General's Draft 'Report Entitled:
                        California Improperly Claimed Enhanced Federal Reimbursement 

                      Jor Medicaid Family Planning Services Provided in San Diego County 

                                             Report #A-09'11-02040


           Finding:                 The State agency did not always comply with certain Federal and
                                     State requirements when claiming Federal reimbursement at the
                                    gO-percent rate for 'family planning services provided under the
                                    -FPACT program in San Diego County. As a result, the State
                                    agency claimed $5,671,216 in unallowable Federal reimbursement.

           Recommendation:          The State agency refund $5,671 ,216 to the Federal Government.

           Response:                 Department of Health Care Services (DHCS) agrees with 'the
                                     recommendation.

                                     DHCS has reviewed the sampling methodology, sampling results,
                                     and estimates. DHCS agrees with the recommendation. An
                                     Operational Instruction Letter will be sent to the Fiscal Intermediary
                                     (FI) with the instructions to update the system and discontinue the
                                     inappropriate claiming of gO percent FFP for the identified
                                     procedure codes. Additionally, a memo to the Department's
                                     Accounting Office will also be generated with the instructions 'to
                                    'make the appropriate accounting adjustments for the return of the
                                     unallowable Federal Reimbursement.


           Finding:                  The State agency did not have billing procedures to ensure that it
                                     claimed reimbursement at the gO-percent rate only for services
                                     whose primary purpose was family planning .

           Recommendation:           The State agency establish billing procedures to ensure that only
                                     services whose primary purpose is family planning are claimed 'for
                                     reimbursement at the gO-percent rate .

           Response:                 DHCS agrees with the recommendation.
                                    The Family PACT program provides reproductive health services
                                    designed to support family planning methods for women and men ,
                                    as gender appropriate by assisting individuals who have a medical
                                    necessity for family planning services. Family planning method
                                    management is the main purpose of each visit. Secondarily, Family
                                    PACT services include assistance with related reproductive health
                                    conditions to achieve and maintain optimal reproductive .health._ _ _ _ __
                                    Primary benefits are services relevant to the use of family planning
                                    methods and include specified reproductive health care screening
                                    tests. Secondary benefits provided by Family PACT are family

                                                      Page 1




Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                             14
                                                                                                  APPENDIXE 





                                   planning-related services such as medical diagnosis and treatment
                                   services that are provided pursuant to a family planning visit.

                                   As a result of this audit, it has been discovered that Family PACT
                                   providers have not provided sufficient staff training to ensure 'that
                                   only services whose primary purpose was 'family planning is
                                   claimed for reimbursement. The Office of Family Planning (OFP)
                                   intends'to 'launch a continuing educational program 'for Family
                                   PACT providers with the goal to educate providers on the purpose
                                   of the Family PACT program and what constitutes a family planning
                                   visit. The Family PACT program's Policies, Procedures and Billing
                                   instructions (PPBI) manual will be revised to add language and
                                   examples regarding how providers should apply the standards and
                                   rules in their practices with Family PACT clients. This on-going
                                   educational training will be disseminated via a variety of forums,
                                   which include , but are not limited to , website postings , webinars,
                                   pod casts, and face-to face seminars.

                                   The OFP is currently working on a system conversion to convert
                                   from the current special diagnosis codes (S-Codes) to ICD-9 codes.
                                   This conversion to ICD-9 will implement a system 'fix with hard edits
                                   to ensure appropriate billing and claiming. Only codes associated
                                   with family planning visit will be paid at the appropriate Federal
                                   Financial Participation (FFP) rate. 	                          '

                                   Also, with the implementation of a new Fiscallntermediary 'payment
                                   system, the new payment system will allow 'for the appropriate
                                   payment of claims at the correct FFP rate.

                                   In addition to the proposed corrective plan, an internal audit piece
                                   will be implemented to ensure that once corrective measures are
                                   established , providers are complying and following suit with the
                                   new requirements and policies regarding FFP claiming. These
                                   State audit activities may entail, depending 'on resources available,
                                   annual or semi-annual audits of a sample of Family PACT providers
                                   claiming FFP rates on certain procedures . As such , the program
                                   can proactively detect and correct overpayment on an ongoing
                                   basis.


           Finding: 	              The State agency's MMIS lacked edits to prevent follow-up services
                                   from being claimed at the 90-percent rate and to ensure that claims
                                   contained a CMS-approved procedure code.

          Recommendation:      The State agency establish MMIS edits to ensure that family
- - - --'-'-'-'-"="-'-'=== - --=
                               p'lanning-claims 'meet Federal and-State requiremeniSfo:
                                                                                     "'r - ' - - - - - - - ­ 

                               reimbursement at the 90-percent rate and at the regular FMAP for 

                               follow-up visits. 


                                                    Page 2




Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                           15
                                                                                               APPENDIXE 





            Response:               DHCS agrees with the recommendation .

                                    A Problem Statement has been initiated that will correct a system
                                    defect that resulted in the claiming of enhanced FFP for a limited
                                    number of procedure codes that were not authorized for gO-percent
                                    FFP claiming. :




                                                    Page 3




Medicaid Family Planning Services in San Diego County, California (A-09-11-02040)                        16
